     Department of Homeland Security

     ��������������������������


 Information Technology Management Letter for the 

       USCIS Component of the FY 2013 DHS 

             Financial Statement Audit





OIG-14-80                                  April 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


 
                                     April 25, 2014 
 
 
MEMORANDUM FOR:              Mark Schwartz 
                             Chief Information Officer 
                             United States Citizenship and Immigration Services 
 
                             Joseph Moore 
                             Chief Financial Officer  
                             United States Citizenship and Immigration Services 
 
FROM:                        Richard Harsche 
                             Acting Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:                     Information Technology Management Letter for the United 
                             States Citizenship and Immigration Services Component of 
                             the FY 2013 Department of Homeland Security Financial 
                             Statement Audit 
 
Attached for your information is our final report, Information Technology Management 
Letter for the United States Citizenship and Immigration Services Component of the FY 
2013 Department of Homeland Security Financial Statement Audit. This report contains 
comments and recommendations related to information technology internal control 
deficiencies that were not required to be reported in the Independent Auditors’ Report. 
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of Department of Homeland Security fiscal year 2013 consolidated 
financial statements. The contract required that KPMG perform its audit according to 
generally accepted government auditing standards and guidance from the Office of 
Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 11, 2014, and the 
conclusion expressed in it. 
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
 
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Office of Inspector General,
U.S. Department of Homeland Security, and

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security, U.S. Citizenship and Immigration Services

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards issued by the American Institute of
Certified Public Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to U.S. Citizenship and Immigration Services
(USCIS).

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to USCIS’ financial systems’ IT controls, we noted certain matters in the areas of security
management, access controls, configuration management, segregation of duties, and contingency
planning. These matters are described in the General IT Control Findings and Recommendations
section of this letter.

The Table of Contents identifies each section of the letter. We have provided a description of key
USCIS financial systems and IT infrastructure within the scope of the FY 2013 DHS financial
statement audit in Appendix A, and a listing of each IT NFR communicated to management during our
audit in Appendix B.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
During our audit we noted certain matters involving financial reporting internal controls (comments
not related to IT) and other operational matters, including certain deficiencies in internal control that
we consider to be significant deficiencies and material weaknesses, and communicated them in writing
to management and those charged with governance in our Independent Auditors’ Report and in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                                  Department of Homeland Security
                             Information Technology Management Letter
                              U.S. Citizenship and Immigration Services
                                         September 30, 2013


                                     TABLE OF CONTENTS

                                                                                         Page
Objective, Scope, and Approach                                                            2

Summary of Findings                                                                       4

General IT Control Findings and Recommendations                                           5

   Findings                                                                               5

       Security Management                                                                5

       Access Controls                                                                    5

       Configuration Management                                                           6

   Recommendations                                                                        6

       Security Management                                                                6

       Access Controls                                                                    6

       Configuration Management                                                           6

IT Application Controls                                                                   6


                                          APPENDICES

Appendix                                      Subject                                    Page
           Description of Key USCIS Financial Systems and IT Infrastructure within the    7
   A
           Scope of the FY 2013 DHS Financial Statement Audit 

   B       FY 2013 IT Notices of Findings and Recommendations at USCIS                    9





                                                 1

                                    Department of Homeland Security
                               Information Technology Management Letter
                                U.S. Citizenship and Immigration Services
                                           September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) and IT application controls
at U.S. Citizenship and Immigration Services (USCIS) to assist in planning and performing our audit
engagement.

Scope

The scope of our GITC and IT application control test work is described in Appendix A, which provides a
description of the key USCIS financial systems and IT infrastructure within the scope of the USCIS
component of the FY 2013 DHS consolidated financial statement audit.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office, formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

	 Security Management – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

   	 In conjunction with our test work of security management GITCs, limited after-hours physical
      security testing and social engineering at select USCIS facilities was conducted to identify
      potential control deficiencies in non-technical aspects of IT security.

	 Access Control – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

	 Configuration Management – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provide reasonable assurance
   that systems are configured and operating securely and as intended.


                                                    2

                                    Department of Homeland Security
                               Information Technology Management Letter
                                U.S. Citizenship and Immigration Services
                                           September 30, 2013


   	 We performed technical information security testing for key USCIS network and system devices.
      The technical security testing was performed from within select DHS facilities and focused on
      production devices that directly support DHS’ and USCIS’ financial processing and key general
      support systems.

	 Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
   to manage who can control key aspects of computer-related operations.

	 Contingency Planning – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                     3

                                    Department of Homeland Security
                               Information Technology Management Letter
                                U.S. Citizenship and Immigration Services
                                           September 30, 2013


                                      SUMMARY OF FINDINGS

During FY 2012, USCIS took corrective action to address certain prior year IT control deficiencies. For
example, USCIS made improvements over strengthening controls around security awareness training
compliance and privileged system access monitoring. However, during FY 2013, we continued to identify
GITC deficiencies related to controls over security management (including deficiencies over physical
security and security awareness), access control, and configuration management for the USCIS core
financial system and associated General Support System environments.

Collectively, the IT control deficiencies limited USCIS’ ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these deficiencies negatively impacted USCIS’ internal controls over financial reporting and its
operations. We consider these deficiencies, in aggregate, to contribute to the IT material weakness at the
Department level under standards established by the American Institute of Certified Public Accountants.
In addition, based upon the results of our test work, we noted that USCIS contributes to the Department’s
non-compliance with the relevant federal financial management systems requirements of the Federal
Financial Management Improvement Act of 1996, mainly because USCIS’ application tracking systems
are not designed to support the financial reporting process.

Of the five IT Notices of Findings and Recommendations (NFRs) issued during our FY 2013 testing, four
were repeat findings, either partially or in whole from the prior year, and one was a new finding. The five
IT NFRs issued represent deficiencies in three of the five FISCAM GITC categories.

The majority of findings resulted from the lack of properly documented, fully designed and implemented ,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology guidance. Specifically, the findings stem from
inadequately designed and ineffective access control policies and procedures relating to the management
of logical access to financial applications, databases, and support systems; and patch, configuration, and
vulnerability management control deficiencies within systems.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and USCIS financial data could be exploited, thereby compromising the integrity of USCIS
financial data used by management and reported in USCIS’ and DHS’ financial statements.

While the recommendations made by us should be considered by USCIS, it is the ultimate responsibility
of USCIS management to determine the most appropriate method(s) for addressing the deficiencies
identified.




                                                     4

                                   Department of Homeland Security
                              Information Technology Management Letter
                               U.S. Citizenship and Immigration Services
                                          September 30, 2013


               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS


Findings

During our audit of the FY 2013 DHS financial statements, we identified the following USCIS GITC
deficiencies that, in the aggregate, contribute to the IT material weakness at the Department level.

Security Management

After-Hours Physical Security Testing

On August 19, 2013, we performed after-hours physical security testing to identify risks related to non-
technical aspects of IT security. These non-technical IT security aspects included physical access to
printed or electronic media, equipment, or credentials residing within a USCIS employee’s or contractor’s
work area or shared workspaces which could be used by others to gain unauthorized access to systems
housing financial or other sensitive information. The testing was performed at a USCIS facility in
Washington, DC, that processes, maintains, and has access to financial data.

We observed 24 instances where passwords, sensitive IT information (such as server names or IP
addresses), unsecured or unlocked laptops and external media, and printed materials marked “For Official
Use Only” or containing sensitive Personally Identifiable Information were accessible by individuals
without a “need to know”.

Social Engineering

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.

On July 17, 2013, we performed social engineering testing from a DHS facility to identify risks related to
USCIS personnel awareness of responsibilities for protecting sensitive IT information, including personal
system access credentials, from disclosure to unauthorized personnel. We noted eight instances where
individuals divulged their Federal Financial Management System (FFMS) application account password
to KPMG auditors.

Access Controls

	 Account management activities on FFMS, including revocation of access from separated or
   transferred Federal employees and contractors, were not consistently or timely documented or
   implemented in accordance with DHS and USCIS policy.

	 DHS requirements for password complexity were not fully implemented for accounts on the USCIS
   network.



                                                    5

                                   Department of Homeland Security
                              Information Technology Management Letter
                               U.S. Citizenship and Immigration Services
                                          September 30, 2013


Configuration Management

	 Security patch management and configuration deficiencies were identified during the vulnerability
   assessment on hosts supporting FFMS.

Recommendations

We recommend that the USCIS Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO), in coordination with the DHS OCIO and the DHS OCFO, make the following
improvements to USCIS‘s financial management systems and associated IT security program.

Configuration Management

	 Continue to monitor the Service Provider’s efforts to remediate and implement the specific vendor-
   recommended corrective actions detailed in the NFRs that were issued for deficiencies identified
   during our vulnerability assessment.

Security Management

	 Develop and implement monitoring controls to assess employee compliance with information,
   physical, and privacy security policies with respect to protecting personal system access credentials
   from disclosure to unauthorized personnel.

	 Enhance information, physical, and privacy security awareness efforts to remind employees of
   responsibilities to protect government data and equipment, and develop and implement a process to
   conduct periodic after-hours reviews of USCIS workspaces to assess compliance with information,
   physical, and privacy security policies.

Access Controls

	 Implement monitoring controls over the exit clearance process to ensure that all separated and
   transferred Federal employees and contractors’ access to USCIS systems is revoked in a timely
   manner in accordance with USCIS and DHS requirements.

	 Implement technical controls to ensure that passwords for accounts on the USCIS network are
   configured in accordance with DHS requirements.


                                  IT APPLICATION CONTROLS

We conducted testing over certain FFMS application controls supporting in-scope processes during the
USCIS component of the FY 2013 DHS financial statement audit and did not identify any control
deficiencies.




                                                   6

                       Department of Homeland Security
                  Information Technology Management Letter
                   U.S. Citizenship and Immigration Services
                              September 30, 2013




                              Appendix A 

Description of Key USCIS Financial Systems and IT Infrastructure 

 within the Scope of the FY 2013 DHS Financial Statement Audit 





                                      7

                                                                                              Appendix A

                                    Department of Homeland Security
                               Information Technology Management Letter
                                U.S. Citizenship and Immigration Services
                                           September 30, 2013


Below is a description of significant USCIS financial management systems and supporting IT
infrastructure included in the scope of the USCIS component of the DHS FY 2013 financial statement
audit.

Federal Financial Management System (FFMS)

FFMS is a CFO designated financial system and certified software application that conforms to Office of
Management and Budget Circular A-127 and implements the use of a Standard General Ledger for the
accounting of agency financial transactions. It is used to create and maintain a record of each allocation,
commitment, obligation, travel advance and accounts receivable issued. It is the system of record for the
agency and supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf
(COTS) financial reporting system, which has an IBM z/OS operating system and an Oracle database. It
includes the core system used by accountants, FFMS Desktop that is used by end-users, and a National
Finance Center payroll interface. The FFMS mainframe component and servers are hosted at the DHS
Enterprise Data Center located in Virginia (VA). U.S. Immigration and Customs Enforcement is the
system owner and manages FFMS for USCIS.

USCIS Network (CIS1)

CIS1 is the Active Directory Domain Services Platform used within the USCIS that contains all of
USCIS’s Active Directory and Exchange resources. CIS1 is a part of the Enterprise Infrastructure
Services accreditation boundary and all Active Directory information, including the Active Directory
database itself, is hosted on specified servers called Domain Controllers. These 52 Active Directory
Domain Controllers are located throughout the country, with the majority of them being located in VA
and Nebraska.




                                                    8

                     Department of Homeland Security
                Information Technology Management Letter
                 U.S. Citizenship and Immigration Services
                            September 30, 2013




                            Appendix B 

FY 2013 IT Notices of Findings and Recommendations at USCIS





                                    9

                                                                                                                                       Appendix B

                                                      Department of Homeland Security
                                                 Information Technology Management Letter
                                                  U.S. Citizenship and Immigration Services
                                                             September 30, 2013


FY 2013 NFR #                                        NFR Title                                          FISCAM Control Area       New     Repeat
                                                                                                                                  Issue    Issue
 CIS-IT-13-01   Security Awareness Issues Identified During Social Engineering Testing at USCIS          Security Management                X
 CIS-IT-13-02   Deficiencies in transferred/terminated employee exit processing                            Access Controls                  X
 CIS-IT-13-03   Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                X
                USCIS
 CIS-IT-13-04   Weakness in CIS1 Password Complexity                                                       Access Controls         X
 CIS-IT-13-05   FFMS Vulnerability Weaknesses Impact USCIS Operations                                  Configuration Management             X




                                                                        10

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-14-80
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
